No.

In The

Supreme Court of the United States

FERNANDO A. RAMIREZ,
Petitioner,
v.

DAVE HOUGE and ROD DIDIER,
Respondents,

On Petition For A Writ Of Certiorari
To The Supreme Court State Of North Dakota

PETITION FOR A WRIT OF CERTIORARI

Fernando Alberto Ramirez Diaz
1615 Western Park Vlg.
Jamestown, ND 58401
fard822@aol.com
Tel: 701 269 7910

1

QUESTION PRESENTED

After a 911 call, the police officer makes a report of what happened; This is
electronically recorded and is called CALL FOR SERVICE. This document, being of
public interest can be obtained through an application.

Both the plaintiff and the defendant have made calls to 911. But only the defendant
and his lawyer know of the existence of the CALL FOR SERVICE.
On the day of the Trial, the lawyer sends a FALSIFIED or MODIFIED CALL FOR
SERVICE into court. But the plaintiff did not notice that, until after the Trial
ended.
The plaintiff responds to the court with SUPPORT AND EVIDENCE, on the
FRAUD of those documents BEFORE the judge makes his verdict.
The plaintiff asked the police for ALL copies related to the case, and finds that
these were modified, mutilated, and others were deleted from the system. And
concludes that the defendant has found the form, or found "someone" who can enter
the police computer system, and modify it at will.
But the courts ignore this matter and based on the MODIFIED CALL FOR
SERVICE, and all that derives from this, fail in favor of the defendants.

The question presented is whether courts can ignore what public and important
documents such as CALL FOR SERVICE, which have been modified, and others
removed from the system; in order to sabotage the lawsuit, be used to take a
verdict, without the courts doing the slightest investigation in this regard.

ii

LIST OF PARTIES

Pursuant to Supreme Court Rule 14.1(b), the following list identifies all the
parties before the Supreme Court of North Dakota.
Fernando A. Ramirez was the Appellant below and he is the Petitioner in this
action. Dave Houge and Rod Dither was the Appellee below and is the Respondents
in this action.

111

TABLE OF CONTENTS
Page
i

QUESTION PRESENTED.

ii

LIST OF PARTIES.

v

TABLE OF AUTHORITIES.

1

OPINIONS BELOW.

1

JURISDICTION.

1

CONSTITUTIONAL PROVISIONS INVOLVED.

2

STATEMENT OF THE CASE.

10

REASONS FOR GRANTING THE PETITION.

10

I. THE COURT SHOULD GRANT REVIEW TO RESOLVE A
NATIONWIDE SPLIT AS TO WHETHER STATE COURTS MAY
IGNORE THE INCOME OF AMENDED OR FALSIFIED
DOCUMENTS OF PUBLIC INTEREST TO THE RECORD AND
CONCQUENT DESTRUCTION OF THE FILE OR RECEIVED
BY THE FILE FROM THE POLICE. ALLOWING A SABOTAGE TO
THE PETITIONER'S DEMAND.

20

A. The courts are divided as to whether a judge can ignore relevant
factors where the falsification of documents of public interest did
not deserve due attention, this matter being considered a crime,
and therefore penalizable.

21

B. There is a larger split where lower courts have considered evading
the matter and choosing to dismiss the case following the proposal
of the defendant's lawyer.

iv

TABLE OF CONTENTS — Continued.

Page
21

II. THE COURT'S INTERVENTION IS NECESSARY DUE TO THE
EXCEPTIONAL IMPORTANCE THIS OPEN QUESTION ON WHAT
GUARANTEE CAN BE OFFERED AS TO PUBLIC INTEREST
DOCUMENTS ARE PROPERLY PROTECTED.

28

III. REVIEW BY THIS COURT IS NEEDED BECAUSE THE SUPREME
COURT OF THE STATE OF NORTH DAKOTA HAS DECIDED TO
IGNORE IMPORTANT BOTH STATE AND FEDERAL LAWS,
WHICH PROHIBIT FALSIFICATION IN DOCUMENTS OF PUBLIC
INTEREST WHICH, IF LEFT TO STAND UNDERMINES THIS
COURT'S DECISION.

31

CONCLUSION.

APPENDIX A.
Page.
App. 1

Opinion of the Supreme Court of North Dakota.

App. 3

JUDGMENT.

App. 4

Order of Court for the Southeast Judicial District.

App. 11

ORDER ON PETITION FOR REHEARING.

TABLE OF AUTHORITIES
Page. CASES.
20

United States v. Simpson, 460 F.2d 515, 518 (9th Cir. 1972).

20

United States v. DeGroat, 30 F. 764, 765 (E.D.Mich. 1887).

23

Burgess v. Shampooch Pet Industries, Inc., 131 P.3d 1248 (Kan. Ct. App.
2006)

23

Leith v. Frost, 899 N.E.2d 635 (Ill. Ct. App. 2008).

26

Womack v. Von Rardan, 135 P.3d 542 (Wash. Ct. App. 2006).

23

Brigham City v. Stuart, 547 U.S. 398, 403 (2006);

23

Tuck v. United States, 477 A.2d 1115, 1120 (D.C. 1984).

23

Massachusetts v. Ortiz, 435 Mass. 569 (2002).

23

Stanton v. State S.W.3d 676 (Tenn. 2013)

23

State v. Criswell, 305 P.3d 760 (Mont.,2013).

26

State v. Gilchrist, 418 P.3d 689 (Okla., 2017).

25

State v. Acker, 160 Conn. App. 734 (2015).

STATUTES AND CONSTITUTIONAL PROVISIONS.
Page.
28

Section 1506

28

8 U.S.C. § 1324c

28

18 U.S.C. § 1519

20

18 U.S.C. § 641

20

18 U.S.C. § 1361

20

18 U.S.C. § 2071

20

18 U.S.C. § 2071 (a).

vi
STATUTES AND CONSTITUTIONAL PROVISIONS. — Continued.
Page.
29

[USCO2] 18 USC Ch. 47.

29

18 U.S.C. § 1512.

29

18 U.S.C. § 1621.

20

18 U.S.C. § 1506.

29

§ 45 — 11 — 1.

29

5 U.S.C. 552a.

29

18 U.S.C. § 1001.

30

18 U.S.C. § 1623.

20

1663

26

ND Century Code 36-21-1-01

28

ND Century Code 12.1 — 11

28

ND Century Code 12.1 — 12

28

ND Century Code 12.1 — 11 — 05.

1

U.S. Const. amend. 14th.

MISCELLANEOUS
Page.
29

Brief of Defendant, page 12. No, 38.

29

Reply Brief of Plaintiff, page 9, No. 47.

1

PETITION FOR WRIT OF CERTIORARI
Petitioner Fernando A. Ramirez respectfully submits this petition for a writ of
certiorari.

OPINIONS BELOW
The opinion of the Supreme Court State of North Dakota is reported at 2019 ND
245, and is printed to the Appendix hereto, App. 1. The judgment by the District
Court Southeast Judicial District, is printed to the Appendix hereto, App. 4

JURISDICTION

The Supreme Court State of North Dakota, entered its judgment on October 3,
2019 and denied a petition for rehearing on October 29, 2019. This Court has
jurisdiction under 28 U.S.C. § 1254(1).

CONSTITUTIONAL PROVISIONS INVOLVED
The Constitution of the United States, Amendment XIV, provides in pertinent
part:
Rights Guaranteed: Privileges and Immunities of Citizenship, Due Process, and
Equal Protection. All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and the State wherein
they reside.

2
Prohibiting Private Discrimination. As we have seen in an earlier chapter, the equal
protection clause of the Fourteenth Amendment prohibits most discrimination on
the basis of race and gender (and also alienage and national origin), but only when
practiced by the government.

STATEMENT OF THE CASE
The Petitioner, Fernando A. Ramirez, is a Colombian citizen, among his various
activities, he comes from a military agreement base between Colombia and U.S.A.
Of which he is a Military Police officer, he arrives in the United States in 2004, and
is currently an American citizen. In 2011 it is based in Jamestown, ND. And on July
6, 2018 begins a lawsuit against Dave Houge and Rod Didier (respondents), for
animal abuse and forced disappearance of their cats.

Falsification or modification and disappearance of records, in documents of public
interest (CALL FOR SERVICE), from the police database, and leading to
discrimination are the basis by which the petitioner is requesting the intervention
of this court.
A Civil Bench Trial was scheduled for January 24, 2019. and it is on this day that
the respondent Houge represented by a lawyer, manages to infiltrate into the
process some "falsified or modified" CALL FOR SERVICE. And with that, a
sabotage to demand.
Houge and Didier are cat hunters, some disappear and those who want to deliver
call 911 for police to pick them up. The petitioner calls 911 to report the
disappearance of their cats, or communicates with the police to report animal abuse.
The general public knows and knows what it is to call 911. either by firemen,

3
ambulances or police.
People, for the most part, don't know what a CALL FOR SERVICE is. In the
common of the people, they do not know that after they have called 911, the police
officer makes a report and this is reflected in an electronic document that they have
called "CALL FOR SERVICE" and that this can be in the domain public.
As for the "modified" CALL FOR SERVICE, this fraud was discovered by the
petitioner after the Trial occurred, but before the trial. The petitioner responds to
the counterpart according to the "Rule 7.1 Notice". (App. 128).
The response given by the petitioner in his document "Findings of Fact Plaintiffs
response". (App. 131 - 149). COMPLAIN THE FRAUD IN THESE DOCUMENTS
"CALL FOR SERVICE". A statement in (App. 145, numeral 10.c) says:
"After reviewing these documents delivered by Mr. Houge's lawyer, they
are mutilated and altered."

But the judge of the district court, DOES NOT PAY ATTENTION TO THIS
MATTER OF GREAT IMPORTANCE. and signed the "ORDER FOR JUDGMENT"
proposal. From the defendant, a document that IS BASED, the FALSIFIED or
MODIFIED CALL FOR SERVICE. (App. 163-167).
It should be noted that if the defendant's lawyer had delivered copies of the CALL
FOR SERVICE (MODIFIED) to the plaintiff, on January 10, 2019. (App. 52),
Ramirez in this case, the entire response document (App. 131 - 149), it would have
been annexed as evidence to counter these counterfeit CALL FOR SERVICE, on the
day of the Trial. Petitioner, for his part, delivered the copies to the court and the
counterpart's lawyer, as it is in the "Trial Memorandum" document (App. 94, - 97),
dated January 10, 2019.
The Respondent then knows, or knows the "someone" who knows how to enter the

4
computer system or database of the police and modify or delete them. But also this
someone has a plan of how to enter the "modified" CALL FOR SERVICE to the legal
process that takes in the district court.

THE PLAN AND STEPS TO FOLLOW
They see if the complainant's COMPLAINT includes calls to 911; but do not
contain CALL FOR SERVICE.
The defendant's lawyer asks the plaintiff if he has hired private investigators in
his case. (It is a fact that both lawyers and private investigators know that a call
to 911, such a report, ends in a CALL FOR SERVICE).
If the plaintiffs answer is "NO", then this is "green light" for the CALL FOR
SERVICE. (originals) are MODIFIED in favor of the defendant.
Before the Trial, the lawyer announces that CALL FOR SERVICE is going to
enter; giving copies to the district court, but will never give copies to the
complainant. (It is important to emphasize that the plaintiff knows what it is to
call 911, but does not know that it is a CALL FOR SERVICE.)
(It is the logic, if the plaintiff receives copies of these CALL FOR SERVICE that
have already been modified, he will have enough time, to realize that they are
false, and that they proceed, after a 911 call is made; therefore that on the day of
the Trial, he will present the valid evidence that can ruin the defendant's plan.)
On the day of the Trial, the lawyer asks the collaboration of a police officer, to
deliver these copies of "modified CALL FOR SERVICE" to the plaintiff.
Note: The police officer may not know that the CALL FOR SERVICE you are
delivering are false; It is only a collaboration of delivering documents in a
district court. But the fact that the plaintiff sees that he is a police officer, this
gives confidence that these documents come from the institution of the police.

5
6. What the defendant's lawyer is looking for is the goodwill, good faith of the
plaintiff in matters of public interest such as believing in the military, in the
police as an institution, in the government, in the state.
With this, the defendant's lawyer is insuring a "YES", by the plaintiff, to these
"modified CALL FOR SERVICE".
7. An arrangement is then made to the modified CALL FOR SERVICE as:
The first document has nothing to do with the case. (This causes the respondent
to lose interest in them at the first glance of these documents.)
Repeat leaves. This creates volume. It seeks to create difficulty, This makes
these documents are looked at, but not detailed. Keep in mind that although the
judge has given time to LOOK, it is also true that the judge is waiting.
The plaintiff is not familiar with this type of documents, so he does not know
what to look for in them, nor why they are delivering them.
8. It is very important to note that the plaintiff does not have, nor has had
problems with the police. Therefore, the entry of CALL FOR SERVICE, the Trial
should not affect, under any aspect the demand. Well, who has been breaking
the law is your opponent or defendant.
So give "YES" to the CALL FOR SERVICE that are entering the Trial, it does
not have to affect the demand. under any aspect.
In addition to this, the lawyer will ask for identification of the plaintiff. The
purpose is to know if the plaintiff has had previous lawsuits that involve calls to
911 and therefore to know if he knows about the CALL FOR SERVICE. The
lawyer will not take risks of entering a FALSIFIED CALL FOR SERVICE, and
on the day of the trial he will run into some "ORIGINAL" CALL FOR SERVICE.
9. A false document is not easy to detect, in a trial, for reasons of time, because it is
not the same to see that to detail. Therefore, the documentation must be served

6
beforehand. Just as the judge has a few days to review the documents before the
Trial, the same right must have the plaintiff, but as here it is the entry of
"falsified documentation", that is why the defendant's lawyer will never give
copies to the plaintiff .
To detect a false document just when the Trial is being carried out, it could be
called a "matter of luck".
10. Finally, to defeat the plaintiff, the lawyer in his proposal document will enter a
RULE, which dismisses the claim, but MUTILING the PATTERN or measure to
be followed, or compliance. It should be noted that the lawyer lacks evidence or
support for the rule entered, so he only announces it, but nothing more. This
constitutes a deception to the court.
Clarifying this point, let's see a simple example with rule 33.1 (g); indicates that
a Booklet Format must contain 9000 word limits.
So the statement is to make a "Booklet Format" and the PATTERN or measure
to follow, or compliance is "9000 word limits".

IN THE CASE OF THIS PETITIONER, THE STEPS MENTIONED ABOVE FROM
1 TO 10 WERE FOLLOWED MINUSIOUSLY BY THE LAWYER OF THE
DEMANDED, ACHIEVING IN THIS FORM, INFILTRATE WITHIN THE
PROCESS, THE FALSIFIED OR MODIFIED "CALL FOR SERVICE" IN THE
DISTRICT COURT OF JAMESTOWN, ND.

STEP 1.
The COMPLAINT of the petitioner (App. 2 - 35), DOES NOT HAVE any CALL FOR
SERVICE, but does have calls to 911. (App. 4 on April 22, 2018; App. 24 on
December 1, 2017).

7
STEP 2.
In "Interrogatory No. 8" (App. 71), the defendant's lawyer asks if there are private
investigators working on this case.

STEP 3.
The plaintiff in his "Answer 8" answers "NO". (App. 81).

STEP 4.
The lawyer announces to enter CALL FOR SERVICES, (App. 98), but does NOT
give copies to the plaintiff. And on the contrary, the plaintiff DOES give copies to
the defendant.

STEP 5
On the day of the Trial, the lawyer requests the collaboration of the animal control
officer, to deliver the "Forged or Modified CALL FOR SERVICE" to the plaintiff.
(Trans. Page 69, ruler 5; Trans. Page 70, ruler 23.)

STEP 6
The plaintiff or petitioner knows the animal control officer, therefore, when these
CALL FOR SERVICE come from a police officer, these documents do NOT represent
any problem.

STEP 7
a. The first CALL FOR SERVICE that appears as DEFENDANT'S EXHIBIT NO. 1
(App. 101 and 102), It has nothing to do with the plaintiff, and not being familiar
with these documents, it is not known exactly, what is to be looked for in them.

8
Sheets repeated as in (App. 107, 108 and 109, 110) that have nothing to do with
the plaintiffs case, or repeated as (App. 103, 104 and 105 and 106), which do
show Houge, Dave (the defendant) as responsible for hunting the Ramirez family
cats, is not a new matter.
Also included are sheets that are not important for the case. contribute to a
bulge (App. 111, 112, 113, 114, 115, 116, 117, 118, 119.)
The claimant is not familiar with the CALL FOR SERVICE, (Trans. page 71,
ruler 1). It says:
"MR. RAMIREZ: I don't know that this is. The attorney never gave some of
these copies to me. I never seen them."

STEP 8.
The plaintiff has no problems with the police, nor has he had them. Therefore, the
entry of a CALL FOR SERVICE, to the court, does not have and should not affect in
the least its demand. Adding to this, the lawyer with his sheets of
"INTERROGATORIES No. 1, 6 and 7", (App. 69, 70 and 76), upon request to the
plaintiff give him what is his social security number, full name and date of birth;
plus the names of people who have been aware of the matter. This has the purpose
that the lawyer wants to know if the plaintiff has any record of any other lawsuit
prior to this and that has involved calls to 911 and therefore knows about the CALL
FOR SERVICE. This is clear, the lawyer does not want to enter FALSIFIED CALL
FOR SERVICE, and be seen in the Trial facing possible "ORIGINAL" CALL FOR
SERVICE.

STEP 9.
During the Trial, the plaintiff did not realize that these "CALL FOR SERVICE"

9
documents had been MODIFIED or FALSIFIED in favor of the defendant, the
lawyer followed THE PLAN AND STEPS TO FOLLOW, thus obtaining
INFILTRATE WITHIN THE PROCESS THE MODIFIED "CALL FOR SERVICE".

STEP 10.
Finally, in the proposal document, the lawyer gets a rule from the state of N.D,
which will dismiss the claim. The lawyer indicates that Ramirez's claim is
"frivolous". This condition is accepted by both the district court and the supreme
court; FORGETTING FULL OF THE FALSIFIED "CALL FOR SERVICE" AND
THE STATE LAW FOR WHICH THE PETITIONER IS DEMANDING.
But this "frivolous" DOES NOT HAVE SUPPORT, LACK OF EVIDENCE, or
PATTERN or MEASURE TO FOLLOW, or COMPLIANCE.
Let's see: For the district court and the supreme court, the claim is "frivolous"
because:
In the OPINION writes the Supreme Court of N.D. "... Because Ramirez's appeal is
frivolous, we award Houge ..."
Frivolous because Houge disappears the cats of the Ramirez family
Frivolous because Houge injures the Ramirez family's cats
Frivolous because Houge crosses the wooden fence with attachments, leaving
cigarette butts and freeing the cats inside Ramirez's house.
Frivolous because Houge points his video camera towards Ramirez's lot.
Frivolous because Houge modifies the CALL FOR SERVICE, at will and disappears
the ones he wants.
Frivolous because Law 12.1 - 21.1 on animal abuse, and undue release, does not
affect Houge.

10
However, the court did not decide whether the entry of falsified documents of public
interest affects the status of the claim, leaving this matter in an undetermined
condition, which has not only affected the Petitioner's claim, but on a larger scale,
that is, since when this practice is being done, as well as what actions should be
taken so that future demands are not ruined by this scourge.
The Supreme Court of North Dakota denied Petitioner Ramirez's Petition for
Rehearing on October 29, 2019.

REASONS FOR GRANTING THE PETITION

I. THE COURT SHOULD GRANT REVIEW TO RESOLVE A NATIONWIDE
SPLIT AS TO WHETHER STATE COURTS MAY IGNORE THE INCOME OF
AMENDED OR FALSIFIED DOCUMENTS OF PUBLIC INTEREST TO THE
RECORD AND CONCQUENT DESTRUCTION OF THE FILE OR RECEIVED
BY THE FILE FROM THE POLICE. ALLOWING A SABOTAGE TO THE
PETITIONER'S DEMAND.
The entry of falsified or modified documents of public interest in order to
sabotage a lawsuit and the purpose of winning a lawsuit in a court, is not the same
to discuss whether a court ruling was made by mistake, or wrong facts, or the
incorrect application of an appropriate rule of law.
Falsifying documents of public interest are penalized both in the state of North
Dakota, and by federal law. Therefore, it is federal responsibility. And with much
more reason when the documents that have been modified, altered or falsified are
the CALL FOR SERVICE; and because there is a "someone" who has found a way to
enter the police database, to alter and / or delete them.

11
The district court in its JUGMENT, when approving the proposal given by Houge's
lawyer, where its main BASE, are the "Modified or falsified CALL FOR SERVICE"
more as they trained their witnesses on what to say and what not to say. and with
all this, the lawyer's proposal is then ready to be loaded with all kinds of inventions
and lies, which are contrary to what the plaintiff is requesting by law based on the
law. With this, the District Court has moved away from the standard way for which
it was created, judging on the basis of neutrality, truth and justice.
The OPINION of the Supreme Court of North Dakota in this matter is
INDETERMINATED.
It is up to the plaintiff to prove that the CALL FOR SERVICE, tickets to the Trial
on January 24, 2019, are false.
Petitioner Ramirez rents a lot, it is open or outdoors, and for those who have pets,
the Liechty Homes Inc. company requires that they be tied up. Respondent Houge
releases Ramirez's cats with the purpose of disappearing or killing them. Given this
situation, the company allows Ramirez to build a wooden fence and, in addition to
this, Ramirez makes it special with attachments so that no cat can overcome it and
the porch closes it with mesh completely. The special wooden fence gave the
expected result, but after a year, Respondent Houge decides to release Ramirez's
cats from inside the mobile home late at night leaving cigarette butts inside the lot.
We have then a special wooden fence with attachments, impossible for a cat to
exceed. This during the day, because at night the cats are locked inside the mobile
home.
PUBLIC DOCUMENTS THAT HAVE BEEN FAKE OR ALTERED —
Declared (App. 145). DEMONSTRATION.
Of all the CALL FOR SERVICE, admitted by Houge's lawyer to the court, there are
two (2) that were severely modified to initiate sabotage of the petitioner's claim.

12
These are:
CALL FOR SERVICE No. 201800009346. (App. 124). it says:
"I spoke to David. David admitted his cats have climbed the fence in the back yard
and gotten lose. I advised David he needed to make sure his cats are kept on his
property and not running lose."

CALL FOR SERVICE No. 201700026072. (App. 121). it says:
"Not sure as to what happened with the cats, not sure if they escaped or if someone
had taken them. From speaking with comp. Are due to language barrier, the way it
sounds is the cats are kept in a fenced in area outside, so they are not sure if the
cats escaped or were taken ... "

With the concept of "The cats climb the wooden fence", or the cats "escape", and
having altered or modified the true CALL FOR SERVICE, with these false writings
presented here, more like how they prepared their witnesses to tell the Judge who
has seen Ramirez's cats escape, the judge refers to Ramirez the following words:
(Trans. 72, ruler 18.)
"Mr. Ramirez, the exhibits speak for themselves. They're records from the
department. The Court is not considering these records to be 100 percent
truthful; they basically speak for themselves ..."

Ramirez does not know what the judge is talking about; because he has not yet seen
the fraud, he does not know that his demand is being sobotaged through the CALL
FOR SERVICE that have been modified.
Ramirez and his son David never told police officers that their cats escaped by
creping the wooden fence or simply escaped.

13
The petitioner presents fourteen (14) evidence to prove that these public documents
were modified:
[11 VIDEO CAMERAS PERMANENTLY INSTALLED.
There is a video camera denounced by the petitioner, located in lot 1616
belonging to Houge, (App. 14). This camera, by its location, points directly to
Ramirez's mobile home and to the Houge courtyard, is active, day and night,
and during the night this camera activates an infrared type light.
This camera is very important, because NEVER or NEVER REGISTERED
Ramirez's cats escaping or climbing a wooden fence or invading the Houge lot.
This camera is true and recognized by Houge in his ANSWER documents.
(App. 47, numeral 7.) and Trial Memorandum (App. 99).
This video camera from Houge is evidence that shows that the CALL FOR
SERVICE, were truly MODIFIED.

[2.] CALL FOR SERVICE No. 201500019254 (ORIGINAL).
This is a CALL FOR SERVICE that was overlooked, and therefore saved from
being modified. In this, where just who called 911, was David, presents the
following:
CALL FOR SERVICE No. 201500019254. (App. 113). it says:

"Caller reported his cat was taken by his neighbor. It is a black male
cat with white marking on his neck. He has a white collar."

As you can see, it does not say that a cat has "escaped" here. David is very
direct, he indicates that it was HIS NEIGHBOR. David refers to Dave Houge
who is a cat hunter.

14
AMBIGUITY. Rechecking the CALL FOR SERVICE No. 201800009346.
(App. 124).
Which has been modified, it says:
"... David admitted his cats have climbed the fence in the back yard
and gotten lose ..."
But Ramirez has recovered three (3) of his cats, and it is the same policeman
who has called him to pick them up, the animal control officer, confirms to
Ramirez that it is Houge who has returned them. This is recorded in the letter
that Ramirez sends to the animal control officer, dated January 31, 2018. And
which aims to make a request for the officer to recover two (2) of her cats, who
are still in Houge's hands. These cats are Tigrilla and Kerly. (App. 28 and 29).
It is demonstrated then, without the least mistake that CALL FOR SERVICE
No. 201800009646. (App. 124). It was truly MODIFIED. Well, it is NOT
possible for them to write that the cats are lost, and then Houge appears
delivering them to the police in a single installment, this is at the end of
January 2018.

The CALL FOR SERVICE No. 201800009346. (App. 123 and 124).
Which has been "modified", is dated April 22, 2018. Houge appears telling the
police officer the story of her cats. Houge owns two (2) cats.
Who called 911 on this date, April 22, 2018 was David, son of Ramirez, and
police officer Johnson has been asked to ask Houge about the fate of Tigrilla
and Kerly; by reason of the letter that Ramirez sent to the animal control
officer dated January 31, 2018. to request him on request to recover his cats
Tigrilla and Kerly from Houge. (App. 28 and 29).

15
The information that police officer Johnson provided to Ramirez about his cats
Tigrilla and Kerly is recorded in the COMPLAINT (App. 4 and 5). Where
Houge acknowledges hearing from them, but did not indicate where they were.
Analyzing the CALL FOR SERVICE, we found that it has truly been
"MODIFIED", as a police officer CANNOT be telling Ramirez what Houge says
about Kerly and Tigrilla, and in the report he is writing something else. And
technically it is a LACK OF RESPECT TO A POLICE OFFICER (A police
officer asking Houge for two specific cats, Kerly and Tigrilla, and Houge
responding with the history of his cats.)
On April 22, 2018, NEVER this issue happened, from Houge telling the story of
his cats.
The CALL FOR SERVICE (originals) were modified after Ramirez informed
Houge's lawyer that he had no private investigators working on his case, this is
dated November 5, 2018 onwards.

[5]

RAMIREZ LOANS THE BANK $ 17,500.00 US dollars.
On April 6, 2016. (App. 87, 88 and 89.) Given that Houge has illegally hunted
Ramirez's cats, bringing them close to death and has totally disappeared, as
recorded in the COMPLAINT, ( App 2 - 35). Ramirez has decided to make a
loan with the bank, for the construction of a wooden fence, but this is SPECIAL
because it includes ADDITIONS that prevent a cat from leaving lot 1615. (App.
135, 137 - 142.). and also completely enclose the Porch. (App. 133, 134, 135,
136).
Note: prior to this, lot 1615 did not have any type of fence, and the porch was
completely uncovered or outdoors.
When making an investment of money for the construction of a wooden fence,

16
with attachments that prevent a cat from climbing it, plus a fully enclosed
Porch, it is evidence and support that the CALL FOR SERVICE No.
201800009346. (App. 124). and No. 201700026072. (App. 121). They were
altered.

THE WOODEN FENCE WITH ATTACHMENTS.
As recorded in videos 1 and 2. (App. 78), and in COMPLAINT (App. 2 - 35). In
which Houge enters lot 1615, and leads to the disappearance and mistreatment
of Ramirez's cats; The effectiveness in the construction of the wooden fence
with attachments, and a completely enclosed porch, is that Houge does not
hunt Ramirez's cats again in this period of time, between April 2016, until
June 4, 2017.
In this period of time, (April 2016, until June 4, 2017); no Ramirez cat is
hunted by Houge, and there is no record in the police, in which Ramirez has
lost any of his cats. This verifies that the CALL FOR SERVICE, were
MODIFIED or FALSIFIED.

THE MOBILE HOME, CLOSED AT NIGHT.
Between June 5, 2017 until November 28, 2017. (App. 24), Ramirez's cats
disappear, at HIGH HOURS OF THE NIGHT. Ramirez sends a letter to
"Office of animal control police". As of Nov. 28, 2017. (App. 18-23).
During the NIGHT, the cats are inside the mobile home, it is closed and the
cats have nowhere to go; It's like a FIRST BARRIER. In (App. 28), there is
proof of this. If you observe the CALL FOR SERVICE; who has modified them,
writes carelessly that "cats escape climbing the wooden fence." This is another
point that demonstrates that the "CALL FOR SERVICE" WERE

17
INTENTIONALLY MODIFIED AND NON-DESCUED. Well, cats being locked
inside the house overnight, has nothing to do with the wooden fence with
attachments that is like a SECOND BARRIER, which is outside the house,
bordering lot 1615.

WOOD FENCE IN CONSTRUCTION PROCESS.
The idea of "Cats climb the fence" or "cats escape", phrases used to sabotage
the petitioner's demand, was taken from the ANSWER document (App. 80 and
81). that Ramirez sends to Houge's lawyer to answer his
"INTERROGATORIES". In these two pages two photographs of the wooden
fence appear, BUT IN CONSTRUCTION PROCESS. This is the beginning
where they idealize how to modify the CALL FOR SERVICE.

"TORITO" IS A SICK CAT.
Anyone who has modified the CALL FOR SERVICE thinks that ALL CATS
CAN CLIMB A FENCE. But this is not true. Of the missing cats between June
and November 2017, this one is named TORITO, (App. 24), which disappears
on November 28, 2017. This cat was adopted by Ramirez as an adult cat; and
since he adopted him, Torito came with a problem that makes it difficult for
him to walk with his hind legs. On an x-ray exam, he reveals that Torito
suffers from ARTHRITIS. (App. 85 and 86).
Torito has never tried to climb a wooden fence because of his condition of
having hip problems, therefore, this is another evidence and support that the
CALL FOR SERVICE, were truly modified and with the sole purpose of
sabotaging the petitioner's demand.

18
CALL FOR SERVICE WHICH WERE DELETED FROM THE POLICE'S
DATABASE SYSTEM.
During the Trial, the animal control officer, Rebekah Johnson, indicates that
she does NOT have all CALL FOR SERVICE (Trans. Page 75, ruler 15 and
16).
It does NOT have them because they were deleted from the system, or
destroyed from the same police database.

DECLARATION OF THE ANIMAL CONTROL OFFICER.
During the Trial, Animal Control Officer Rebekah Johnson clarifies to Houge's
lawyer that the Ramirez family "ALWAYS" claimed that their cats were taken
by the "cat hunter." (Trans. Page 75 ruler 17-25).

CALL FOR SERVICE No. 201400017805, "Modified"
Where it appears as a HOUGE DAVE cat hunter, and dated August 8, 2014 is
another modified document, and Ramirez Miguel appears as a claimant with
address 1615 Western Park Vlg. Miguel is Ramirez's son.
This document was modified, because Ramirez had no complaint against
Houge on August 8, 2014. The claimed Tigrilla and Kerly cats by Ramirez
were not yet born (App. 20 and 21). If the entire APPENDIX is reviewed, there
will not be a single claim that Ramirez is already registered with this date in
cats. There is the complaint by two kittens as of July 2014, who were born in
lot 1615 of Ramirez, of a street cat; to which Houge threw the two dogs
belonging to Didier. But these two kittens did not belong to Ramirez. (App. 8,
9, 25, 26 and 27). Because he did not reach them to adopt.
Ramirez's claims, in cats that BELONG to him, are for ADULT cats; and to a

19
date greater than December 5, 2014, which is when he obtains police licenses.
(App. 30 and 31). It is proven that this CALL FOR SERVICE was modified;
his true date of this event is higher than December 5, 2014, which Houge has
modified to escape Ramirez's claims.

[13] LIECHTY HOMES INC.
Another factor to take into account is the Liechty Homes Inc company, which
owns these lots, important because in this office, there is NO record against
Ramirez in the matter of cat ownership. This is contrary to what Houge's
witnesses said, and how they modified the CALL FOR SERVICE, since both
Houge and his witnesses, none of them presented evidence or support for their
statements.

[14.] DURING THE TRIAL.
The judge refers Ramirez the following words: (Trans. 72, ruler 18.)
"Mr. Ramirez, the exhibits speak for themselves." They're records
from the department. "The Court is not considering these records to
be 100 percent truthful ..."
From this statement you have that one percentage is true and another
percentage is false.
True percentage: When Houge hunts the cats of other owners, it is not
necessary to alter them because they are not the Ramirez cats. But they are
very important because they serve as a reference regarding: They reveal the
name of the cat hunter, the date, and the name of the cat claimant.
False percentage: When Houge hunts Ramirez's cats, and this information
is altered to sabotage the petitioner's demand.

20
THE PETITIONER DEMONSTRATES FULLY THAT THESE DOCUMENTS OF
PUBLIC INTEREST, THE "CALL FOR SERVICE" ENTERED BY HOUGE
LAWYER ON TRIAL DAY, ARE FALSE, VIOLATING WITH THESE STATE AND
FEDERAL LAWS.'
A.

The courts are divided as to whether a judge can ignore relevant
factors where the falsification of documents of public interest did not
deserve due attention, this matter being considered a crime, and
therefore penalizable.

1663. Protection Of Government Property -- Protection Of Public Records And Documents
The taking of a public record or document is prohibited by 18 U.S.C. § 641. The destruction of such
records may be reached under 18 U.S.C. § 1361.
The necessary measure of protection for government documents and records is provided by 18 U.S.C.
§ 2071. Section 2071(a) contains a broad prohibition against destruction of government records or
attempts to destroy such records. This section provides that whoever: willfully and unlawfully;
conceals, removes, mutilates, obliterates or destroys; any record, proceeding, map, book, paper,
document or other thing deposited in any public office may be punished by imprisonment for three
years, a $2, 000 fine, or both.
There are several important aspects to this offense. First, it is a specific intent crime. This means
that the defendant must act intentionally with knowledge that he is violating the law. See United
States v. Simpson, 460 F.2d 515, 518 (9th Cir. 1972). Moreover, one case has suggested that this
specific intent requires that the defendant know that the documents involved are public records. See
United States v. DeGroat, 30 F. 764, 765 (E.D.Mich. 1887).
Subsection (b) of 18 U.S.C. § 2071 contains a similar prohibition specifically directed at custodians of
public records. Any custodian of a public record who "willfully and unlawfully conceals, removes,
mutilates, obliterates, falsifies, or destroys (any record) shall be fined not more than $2,000 or
imprisoned not more than three years, or both; and shall forfeit his office and be disqualified from
holding any office under the United States." While the range of acts proscribed by this subsection is
somewhat narrower than subsection (a), it does provide the additional penalty of forfeiture of
position with the United States.
Title 18 contains two other provisions, of somewhat narrower application, which relate to public
records. Section 285 prohibits the unauthorized taking, use and attempted use of any document,
record or file relating to a claim against the United States for purposes of procuring payment of that
claim. Section 1506 prohibits the theft, alteration or falsification of any record or process in any court
of the United States. Both of these sections are punishable by a $5,000 fine or imprisonment for five
years.

21
A grant of review is necessary to resolve a nationwide split as to whether an
analysis of the trial judge that has decided to ignore such an important aspect of the
process, that it deserves attention in the case of public domain documents that have
been modified and others erased from the system, obstructing with it the
application to the own state law by which the petitioner decided to sue, because
their rights were being violated.

B.

There is a larger split where lower courts have considered evading the
matter and choosing to dismiss the case following the proposal of the
defendant's lawyer.
The supreme court of North Dakota belongs demographically to a territory where

the Hispanic population is very small, they have no representation in any aspect.
Which implies that the decisions taken by the courts are adverse.
The nationwide split divides even further divided if it is considered that there is
support that demonstrates that discrimination is no stranger to this matter.

II. THE COURT'S INTERVENTION IS NECESSARY DUE TO THE
EXCEPTIONAL IMPORTANCE THIS OPEN QUESTION ON WHAT
GUARANTEE CAN BE OFFERED AS TO PUBLIC INTEREST
DOCUMENTS ARE PROPERLY PROTECTED.
The fact that the courts ignore such an important issue as the falsification of
documents of public interest is because the proceeding of being NEUTRAL, for
which the judges have been called to have been affected by another condition:
Discrimination.
The plaintiff asked for DISCRIMINATION, (Appeal page 1.), referring to this:
1. Enter a citizen of Latino origin against a citizen of birth. The courts rule in favor

22
of the citizen of birth.
Enter a Pro Se litigator against a lawyer. The courts rule in favor of the lawyer.
Enter an employee against a company. The courts fail in favor of the company.
The Petitioner has sufficient support and support to prove that the ruling of the
North Dakota courts has been DISCRIMINATORY and NOT to the application of
an appropriate rule of law.
The ruling of the supreme court indicating that the claim is "frivolous" without
presenting due support and evidence that it requires. obeys a matter of
discrimination; and to prove it, petitioner Ramirez has fifteen (15) cases that prove
it with support and evidence.

CASES IN CHRONOLOGICAL ORDER:

Case 1. (App. 14, 47 and 99).
Houge has a video camera that points to lot 1615. An infrared light
is active at night.
Law 12.1 - 21.1 - 02, numeral 6, sanctions the use of video camera. (App. 33).

Case 2. June 2014 (App. 8, 9 and 25).
Houge disappears the mother cat of two kittens in the Ramirez lot and does not
report it to the police.
This act is punishable.

Case 3. July 2014 (App. 8, 9 and 25).
Houge disappears the two (2) kittens found in Ramirez's lot, used two dogs
belonging to Didier to hunt them down, Ramirez claims them and Houge replies

23
that he has thrown them away. (It is not known whether dead, alive or injured).
Not delivering the kittens to the police is a punishable act.

Case 4. Aug. 17, 2015 (App. 11 and 12).
Houge calls 911 for an issue. Ramirez takes this opportunity to ask the police
officer, that through his intervention, Houge returns a cat that has been in his
possession for a week. Houge returns to "Kerly" (cat's name), but Kerly is dying and
can no longer move on his own.2 Houge has not fed him for a week, his intention is
for Kerly to starve.'
This act is punishable.4

Case 5. Nov. 28, 2015 (App. 24.)
Houge releases "Gris" from inside Ramirez's mobile home and does not report it to
the police.
This act is punishable.

2 "pure emergency" and "probable cause and exigent circumstance". The "pure emergency" involves a
law enforcement officer acting solely to save the life of an animal that is not part of an investigative
or law enforcement activity; inherent in the situation is probable cause that a criminal offense has
occurred.

See in general, Brigham City v. Stuart, 547 U.S. 398, 403 (2006); Tuck v. United States, 477 A.2d
1115, 1120 (D.C. 1984).
Massachusetts v. Ortiz, 435 Mass. 569 (2002).
3

Animal cruelty for intentionally or knowingly failing to provide food and care

Stanton v. State, S.W.3d 676 (Tenn. 2013).
State v. Criswell, 305 P.3d 760 (Mont.,2013).
4

(Burgess v. Shampooch Pet Industries, Inc., 131 P.3d 1248 (Kan. Ct. App. 2006))

(Leith v. Frost, 899 N.E.2d 635 (Ill. Ct. App. 2008).)
In an injured animal, compensation is not for the market value of the animal.

24
Case 6. (App. 59).
Houge releases "Carlila" (name of the cat) from her chain, from her collar he
removes the police license number, and a week later the delivery to the police.
When a cat is not licensed, it can be lost. Notice as "Tara" after Houge reports her to
the police, Ramirez can't get her back and loses her. (App. 29).
The intention is to disappear Carlila this is punishable.

Case 7. Dec. 3, 2015 (App. 24).
Houge hunts Kerly again, and this time he disappears. Houge informs the police
officer that he changed his name, but did not indicate where he is. (App. 4 and 5).
Kerly is currently missing.
Disappearing Kerly intentionally, and not knowing if he is alive or dead, is a
punishable act.

Case 8. (App. 61 and 84).
Houge uses a trap not suitable for cats, and damages the nose and cuts a leg to
"Tigrilla". A police officer saw the critical condition of Tigrilla.
This act is punishable.

Case 9. Apr. 26, 2016 (App. 82, 89.)
Petitioner is obliged to make a loan to a bank, in order to make a special wooden
fence and close the porch, in a lot that does not belong to him, so that Houge does
not enter and improperly release the family's cats Ramirez
But a year later, Houge does not respect this and continues to enter and release
the Ramirez family's cats and as proof leaves cigarette butts inside lot 1615. (App.
28).

25
This is a loss to the economy of the Ramirez family. This is $ 574.17 x 36 months,
for a total of $ 20,670 dollars.
Entering a place where animals are housed, to disappear it is punishable.

Case 10. June 5, 2017 (App. 24).
During the night, Houge releases Tara from the mobile home and disappears her.

Case 11. Oct. 15, 2017 (App. 24 and 4).
During the night, Houge releases Tigrilla from the mobile home and disappears it.5

Case 12. Nov. 2, 2017 (App. 24).
During the night, Houge releases Vicka from the mobile home and disappears her.

Case 13. Nov. 28, 2017 (App. 24).
During the night, Houge releases Torito from the mobile home and disappears him.

Case 14. Nov. 28, 2017 (App. 25).
During the night, Houge releases Carlila from the mobile home and disappears her.

Case 15. (App. 29).
The police call Ramirez at the end of January 2018, to indicate that Houge has
delivered some cats that belong to him; They are Carlila, Torito and Vicka. But

5 "animal cruelty for failing to give animals "proper care by exposing [them] to conditions that placed
[them] at risk of hypothermia, dehydration, or to conditions injurious to [their] well-being...."

State v. Acker, 160 Conn. App. 734 (2015)

26
Vicka can't walk, Houge has injured her for life.6

DISCRIMINATION (DEMONSTRATION AND SUMMARIES).
State law that prohibits and sanctions animal abuse, and undue release and
includes the prohibition of the use of video cameras known as Chapter 12.1 - 21.1
(App. 2, 3, 31, 32, 33, and 34). It also compensates for up to three (3) times
monetarily.

If we take North Dakota Law 36 - 21 - 1— 01.7 and apply to each case of the (15)
reported cases.8 We have:

14 x $ 2000 = $ 28,000 dollars. and as economic loss a special wooden fence with a
final value of $ 20,670 dollars, for a total of $ 48,670 dollars.

6 When the defendant acted maliciously or meant to make the owner suffer (what's known as
"intentional infliction of emotional distress"). In a particularly egregious case, a Washington
appellate court found that a cat's owner was entitled to $5,000 for the sleeplessness, depression, and
other emotional distress that she experienced after three boys maliciously set her cat on fire
(Womack v. Von Rardan, 135 P.3d 542 (Wash. Ct. App. 2006)).

7 North Dakotahttp://www.state.nd.usilricencode/T36C211.pdfND Century Code 36-21-1-01 et seq
Cruelty to animals.

Cruelty to animals is a Class A Misdemeanor with up to $2000 in fines and up to 1 year
imprisonment.

Defendant was charged with 13 counts of animal cruelty stemming from maltreatment of 13 dogs
at his property.

8

State v. Gilchrist, 418 P.3d 689 (Okla., 2017)

27
Ramirez sued Houge for $ 14,000 and Didier for $ 6,000 dollars. and if your cats
Kerly and Tigrilla are returned, $ 5,000 dollars is less, the demand for both is
$15,000 dollars. (App. 35).
However, because Ramirez does not have a real domain in this
matter, Petitioner has left it to the court for consideration, (App. 153) it says:

" [¶13] The districto court has the discretion to determine the reasonable
amount to be granted. "

IT IS THEN SHOWN THAT THE LOW CUTS ARE NOT INTERESTED THAT
THE RECORD CONTAINS FALSIFIED MATERIAL AND THAT ANOTHER
RECORD MATERIAL HAS BEEN DESTROYED. AND THAT THIS MATTER
CONTINUES TO PROPAGATE TO MANY OTHER CASES, WHERE ANY
DEMAND AND UNDER ANY LAW BEING VIOLATED, BE TUMBED. (because
the mechanism to do so already exists). BUT IF YOU ARE INTERESTED IN
DISMISSING THE CASE ARGUMENTING THE ATTORNEY'S SUGGESTION,
THAT THE CASE IS "FRIVOLO" EVEN IF IT DOES NOT CONTAIN SUPPORT
OR EVIDENCE. THIS ONLY POINTS TO AN ADDRESS FOR THE
PETITIONER'S CASE ... DISCRIMINATION.

Another important factor to consider and that affects every plaintiff in the
Jamestown District Court, ND. It is the SUPERFICIAL REVIEW that judges make
to the evidence presented, leaving violations of the law in the most complete
IMPUGNITY. As an example, Walmart Store in Jamestown, which dismissed 2/3 of
its workers and paid no compensation, and the only one who dared to report this
matter was SILENCED by the courts. By the time this happened, the petitioner

28
being a Walmart employee had two years of working with the store. (Trans. Page
19).

III. REVIEW BY THIS COURT IS NEEDED BECAUSE THE SUPREME
COURT OF THE STATE OF NORTH DAKOTA HAS DECIDED TO
IGNORE IMPORTANT BOTH STATE AND FEDERAL LAWS, WHICH
PROHIBIT FALSIFICATION IN DOCUMENTS OF PUBLIC INTEREST
WHICH, IF LEFT TO STAND UNDERMINES THIS COURT'S
DECISION.
Both courts, the district court and the Supreme Court of North Dakota, paid no
attention to the FRAUD in which the CALL FOR SERVICE, a document of public
interest, has been the subject.9
The district court ruled on "counterfeit" CALL FOR SERVICE regardless of the
plaintiffs complaint about such fraud. and the supreme court ruled in favor of the
indication given by the defendant's lawyer, that the claim is "frivolous" without
presenting due support and evidence for it; and this is understood as being derived
from falsified documents, which simply are unsustainable.

9

ND Century Code.
Perjury — Falsification — Breach of Duty. 12.1 — 11.
Bribery 12.1 — 12.
Tampering with public records. 12.1 11 — 05.

Federal Laws.
Section 1506 prohibits the theft, alteration or falsification of any record or process in any court of the
United States.
8 U.S. Code § 1324c - Penalties for document fraud.
18 U.S. Code § 1519 - Destruction, alteration, or falsification of records.
(Continued on following page)

29
Houge's lawyer asks Ramirez, who after knowing the CALL FOR SERVICE, if he
made any request to obtain them. (BRIEF OF DEFENDANT, page 12, numeral 38
and onwards).
Ramirez responds to the court. (REPLY BRIEF OF PLAINTIFF. Page 9, numeral
47).
"The CALL FOR SERVICE, were altered from the same database of the
police, this includes that the printing date is also modified."
The support of this answer is because when the fraud is discovered, the petitioner
asks the police for ALL CALL FOR SERVICE, related to the cats that were
delivered by Didier to the police, (Trans. Page 53, ruler 17-24). More related when
the animal control officer, reported in the Trial, that in addition to those she was
presenting, there were others. (trans. Page 75, ruler 15). But the cats that were
delivered by Houge to the police, but the ones he delivered between June 2017 to
February 2018.
The next day, Ramirez is called by the police, to inform him that those CALL FOR
SERVICE, which he is requesting, DO NOT EXIST IN THE RECORD.

[USCO2] 18 USC Ch. 47: FRAUD AND FALSE STATEMENTS
18 U.S.C. § 1512, Falsification of Records.
18 U.S.C. § 1621, law against lying.
§ 45-11-1 - Offenses involving public records, documents, and other items (a) If any public officer or
other person shall steal, embezzle, alter, corrupt, withdraw, falsify, ...
Deliberate falsifying of official time and attendance records; improper use of official ... Willful
prohibited disclosure of individually identifiable information in violation of 5 ... the notice
requirements of the Privacy Act as required by 5 U.S.C. 552a.
18 U.S.C. § 1001, which prohibits individuals ... or; Makes or uses any false writing or document
knowing the same to contain any ...

30
"Someone" has found a way to modify or falsify the CALL FOR SERVICE, entering
the same database of the police.
This is very serious, because with that, if the CALL FOR SERVICE, favor one of the
parties that have come into conflict with an opponent, and if this opponent is the
one who has found a way to modify them, now he can put them against The other
part.
It is very important to emphasize this again, because CALL FOR SERVICE is not
only modified, but also that it deletes or disappears from the system, all those that
this "someone" wants to eliminate.
If nothing is done about it, this "someone" has had, has and will have all the
freedom to modify these important documents, and alter ANY PROCESS in the
state courts. THAT IS WHY THIS MATTER IS OF IMPORTANT PUBLIC
INTEREST.

Police officers who make these reports may not know that any report they
made in the past, no longer exists or has been modified.

This is a very important reason why the intervention of this court is necessary,
since the low courts do not want to pay attention to this matter of great interest.

8 jun. 2018 - falsifying evidence — all of which are inherently wrongful because, ... It appears Mueller
is relying on 18 U.S.C. $1512, which generally ... relevant here because, unlike other obstruction
statutes, it does not ... prohibition to facially-lawful acts taken by public officials exercising of their
discretionary powers.
Two separate statutes define the crime of perjury under federal law. Both statutes, 18 U.S.C. §1621
and 18 U.S.C. §1623, criminalize essentially the same ...
Note: All emphases have been added.

31

CONCLUSION

For the foregoing reasons, this Court should grant this writ of certiorari.

Respectfully submitted,
January 3, 2020.

Fernando A. Ramirez
1615 Western Park Vlg.
Jamestown, ND 58401
(701) 269 7910
fard822@aol.com

